<html>
<title> - FIELD HEARING TO EXAMINE FEDERAL FOOD AND NUTRITION ASSISTANCE PROGRAM</title>
<body><pre>[Senate Hearing 110-122]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-122
 
                        FIELD HEARING TO EXAMINE 
                       FEDERAL FOOD AND NUTRITION 
                           ASSISTANCE PROGRAM 

=======================================================================

                             FIELD HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION


                               __________

                             APRIL 10, 2007

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

35-048 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





























           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         LINDSEY GRAHAM, South Carolina
KEN SALAZAR, Colorado                NORM COLEMAN, Minnesota
SHERROD BROWN, Ohio                  MICHEAL D. CRAPO, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa

                Mark Halverson, Majority Staff Director

                      Robert E. Sturm, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                Vernie Hubert, Minority General Counsel

                                  (ii)



















  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Field Hearing to Examine Federal Food and Nutrition Assistance 
  Program........................................................     1

                              ----------                              

                        Tuesday, April 10, 2007
                    STATEMENTS PRESENTED BY SENATORS

Chambliss, Hon. Saxby, a U.S. Senator from Georgia...............     1

                                Panel I

Carter, Clarence, Deputy Administrator, Food Stamp Program, U.S. 
  Department of Agriculture, Washington, DC, on behalf of Nancy 
  Johner, Undersecretary, U.S. Department of Agriculture.........     4

                                Panel II

Essig, Alan, Executive Director, Georgia Budget and Policy 
  Institute, Atlanta, Georgia....................................    16
Harvey, Mary Dean, Division Director, Division of Family and 
  Children Services, Atlanta, Georgia............................    14
Spicer, Taquana, Clayton County, Georgia.........................    18
                              ----------                              

                                APPENDIX

Prepared Statements:
    Johner, Hon. Nancy...........................................    26
    Essig, Alan..................................................    37
    Harvey, Mary Dean............................................    47
    Spicer, Taquana..............................................    52
Document(s) Submitted for the Record:
Georgia Department of Education, prepared statement..............    56
The Center for Pan Asian Community Services, Inc., prepared 
  statement......................................................    57



                        FIELD HEARING TO EXAMINE



                       FEDERAL FOOD AND NUTRITION



                           ASSISTANCE PROGRAM

                              ----------                              


                        Tuesday, April 10, 2007

                                       U.S. Senate,
                                  Committee on Agriculture,
                                   Nutrition, and Forestry,
                                                   Atlanta, Georgia
    The Committee met, pursuant to notice, at 10 a.m., at the 
Atlanta Community Food Bank, Hon. Saxby Chambliss, presiding.
    Present or submitting a statement: Senator Chambliss.

  STATEMENT HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM GEORGIA

    Senator Chambliss. This hearing will come to order. And I 
want to welcome all of you as we discuss the Federal Food and 
Nutrition Assistance Programs that are due to be reauthorized 
in the Farm Bill.
    First of all, I want to thank Bill Bolling and his great 
staff here from the Atlanta Community Food Bank for hosting us. 
Bill is just an amazing guy that I have gotten to know very 
well over the last several years and just does not only a 
terrific job right here in the metro Atlanta area but just 
literally all over the southeast. And he and I were talking 
downstairs and I had the opportunity to meet a number of the 
other directors from around the state of food banks, and to all 
of you I want to say, first of all, welcome here, but thank you 
for what you do to make sure that those folks who are needy 
folks throughout our state are getting the advantages that they 
would not get otherwise and getting nutritious meals that they 
simply would not get otherwise if it were not for you and the 
many, many hundreds, hundreds and thousands of volunteers that 
work in these organizations throughout the state. So for that I 
say thank you.
    Food banks play an important role in the greater Atlanta 
community to ensure Georgia's families receive the food they 
need. The staff here has been very generous with their time and 
efforts to organize our visit and we are truly grateful. And 
this is my second visit here to the Atlanta Food Bank. I 
thought I was going to come by the first time and maybe get me 
a cold muffin and a Coca-Cola out of the vending machine and 
that would be my, you know, my breakfast this morning, and, 
gosh, I walked back here in the back to see the operation that 
Bill has and it is just truly amazing. The Lord is not only 
looking over this place here, but I think the Lord is back 
there working 7 days a week to make sure this happens. It is 
just a great facility. Nutrition is an important yet often 
overlooked component of the Farm Bill. However, the nutrition 
programs are all well known in Georgia. I appreciate the 
bipartisan approach that the Senate Agriculture Committee has 
taken on nutrition issues in the past, and I am confident that 
both sides of the aisle will continue to work together as we 
craft this year's Farm Bill.
    And let me just say up front my dear friend and colleague 
Senator Tom Harkin, who is Chairman of the Senate Agriculture 
Committee, really intended to be here and regrets that he 
couldn't be here this morning. Tom and I have rescheduled this 
hearing--I think this is the third time that we had it 
scheduled to accommodate both of our schedules because he truly 
wanted to see not only the operation here but obviously wanted 
to hear the testimony as we move forward into the Farm Bill.
    Unfortunately, at the eleventh hour before we got out for 
the Easter break, the majority leader set the schedule for this 
week, and today, this morning, Tom is the author of the Stem 
Cell Research Bill on the Democratic side and that bill is on 
the floor and he had absolutely no control over it. So he hates 
he cannot be here, but he has sent a member of his staff down 
here, Derek Miller, who is with us. Derek, thank you very much 
for coming and representing Tom. Our staffs, as well as the 
members of the Senate Agriculture Committee work in a 
bipartisan spirit. I wish I could say that always happens on 
the floor of the Senate from every standpoint, but the Senate 
Ag Committee has always been very bipartisan, and now whether 
we are talking about commodities or conservation or the 
nutrition title, it is truly farmers and ranchers across 
America and it is people, when it comes to the nutrition title, 
that we represent, not a political party. Derek here has worked 
very closely with our staff over several years, and I truly do 
appreciate the working relationship that we share, especially 
on nutrition issues.
    Our nutrition assistance programs play a key role in 
ensuring that needy Americans have access to the food they need 
to lead healthy, productive lives. I know from the 
schoolteachers in my family, which is my wife as well as my 
daughter, the importance of good nutrition, especially for our 
children's development. Moreover, the nutrition programs 
increase purchasing power for food and distribution of U.S. 
farm products which helps farmers and rural America.
    Finally, food assistance programs are an important part of 
this country's safety net. Not long ago our Nation witnessed 
the Food Stamp's Program--Food Stamp Program's effective 
emergency response to evacuees from Hurricanes Katrina and 
Rita, including the assistance given to evacuees who sought 
shelter and relief right here in our home state of Georgia. The 
U.S. food assistance programs are good for families, good for 
farmers, and good for America.
    Nutrition programs have been and continue to be an 
important part of the Farm Bill. Under the nutrition title, the 
Food Stamp Program will receive a large share of the 
Committee's attention because it not only helps by providing 
food and emergency aid, it helps America's needy families on 
their path to independence and self-sufficiency. Through the 
fiscal year 2006, 1 out of every 10 Georgians participated in 
the Food Stamp Program, which generated a Federal investment of 
over $1 billion for the Georgia economy. In the 10 years since 
welfare reform was passed by Congress and signed by President 
Clinton, fewer families received cash welfare and more families 
are working, exactly what we wanted to see in our great 
country.
    Program administration has also greatly improved. During 
the past 5 years while average monthly participation increased 
to a near historical high, the combined error rates of 
overpayments and underpayments fell to a historical low.
    However, we still have room to improve. For example, 
program modernization should be encouraged to allow 
participants and administrators to utilize on-line 
technologies. Increased implementation of modern technologies 
will bring much needed efficiencies to the program, allow 
hardworking Americans to stay at work and not make so many 
visits to the food stamp office, and allow administrators to 
improve customer service, case management and program accuracy.
    In addition, there are some aspects of the Food Stamp 
Program that may reduce working families' ability to escape the 
cycle of poverty. The law encourages welfare families to enter 
the workforce and begin to save money. However, food stamp 
asset rules conflict with families' abilities to save for their 
future. The asset limit of $2,000 for most food stamp 
recipients was set more than 20 years ago. When indexed for 
inflation, the asset limit would be almost $4,000 today. A 
higher asset limit may help families buildup savings in order 
to achieve financial independence and prepare for a rainy day 
or get an education or eventually end their need to receive 
food stamps.
    Finally, food stamp rules discourage working families from 
utilizing all the financial investment tools encouraged by the 
tax code for other hardworking Americans. I believe Congress 
should take a look at permitting investment and modern savings 
programs for retirement and savings for higher education.
    For these reasons, in February of this year I introduced 
Senate Bill 591, the Food Stamp Personal Savings and Investment 
Act of 2007. Joining me as co-sponsors of the bill include 
Senator Harkin, the current chairman, and five other senior 
Agriculture Committee members. I understand we will likely be 
facing budgetary pressures for the Farm Bill. However, I hope 
that both sides of the aisle, working together, we can address 
these issues, especially the asset limit issue. Reforming food 
stamp asset limits has a potential to help needy families break 
the cycle of poverty and achieve long-term financial 
independence.
    I want to thank all of our witnesses who are with us today, 
and with our first family here, we will begin with USDA Deputy 
Administrator for the Food Stamp Program, Clarence Carter, who 
is here at the last minute substituting for Nancy Johner, who 
unfortunately got under the weather and couldn't be here. But 
Clarence, we appreciate very much you being here. We are going 
to start with you and we look forward to your presentation.

STATEMENT OF CLARENCE CARTER, DEPUTY ADMINISTRATOR, FOOD STAMP 
  PROGRAM, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, DC, ON 
  BEHALF OF NANCY JOHNER, UNDERSECRETARY, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Carter. Mr. Chairman and people in attendance, it is a 
pleasure to be here with you this morning. And I do bring you 
greetings from Agriculture Secretary Mike Johanns and also 
Under Secretary Nancy Montanez Johner, who, as you pointed out, 
took ill this weekend and was advised not to travel by her 
doctor, so she sends her regrets. I'm also joined this morning 
by Kate Houston, who is the Deputy Administrator for the 
Special Nutrition Programs.
    And just before I get to my remarks, I too wanted to 
acknowledge Bill Bolling and the work of the Atlanta Community 
Food Bank. In my line of work, I have had the good fortune to 
see many food banks all across this country, and, Bill, I will 
tell you here that this is truly a model for food banks all 
over the country and you folks should be very, very proud of 
the work that you do here. So I want to tell you to keep up the 
good work.
    I would also like to acknowledge our Southeast Regional 
Administrator Don Arnette, who is a Regional Administrator for 
the Food & Nutrition Service that this region encompasses, the 
eight southeastern states including Georgia, Florida, South 
Carolina, North Carolina, Alabama, Mississippi, Kentucky and 
Tennessee.
    And just one final acknowledgment. Mr. Chairman, I want to 
acknowledge your wisdom and good judgment in spiriting away 
our--my former boss Kate Coler, the Deputy Undersecretary at 
Food, Nutrition and Consumer Service, and our loss is your 
gain.
    Senator Chambliss. I helped train Kate in my House days.
    Mr. Carter. Mr. Chairman, the 15 Domestic Nutrition 
Assistance Programs administered by FNS, the Food Nutrition 
Service, work together to improve food security, fight hunger, 
and support healthy eating for children of low-income people 
across the Nation. The President's budget for fiscal year 2008 
demonstrates the Administration's unwavering commitment to this 
mission by requesting a record level of $59 billion for these 
vital programs, which serve one in five Americans over the 
course of the year.
    The Food Stamp Program is the Nation's primary nutrition 
assistance program, increasing food purchasing power for 
households with little income and few resources by providing 
benefits that are redeemed at retail groceries stores across 
the country. Over 26 million low-income people make use of the 
program to help put food on the table.
    The evidence is clear that the Food Stamp Program makes an 
important difference in the lives of low-income children and 
families and the others that it serves. With its nationwide 
standards for eligibility and benefits, it represents a 
national nutrition safety net for low-income families and 
individuals wherever they live. It is designed to expand on 
automatically to respond to increased need when the economy is 
in recession and contracts when the economy is growing, making 
sure that food gets to the people who need it, when they need 
it.
    To sum up, Mr. Chairman, the Food Stamp Program works. 
That's why we are committed to ensuring effective program 
operations for all eligible people who wish to participate.
    In addition to food stamps, FNS administers 14 Nutrition 
Assistance Programs designed to complement the Food Stamp 
Program. These programs provide supplemental nutrition 
assistance for specific population groups. The other major 
nutrition assistance programs include:
    The Child Nutrition Programs, including the school meal (a 
lunch and breakfast) programs, the Child and Adult Care Food 
Program, support nutritious meals and snacks served to over 31 
million children in schools, child care institutions and after-
school care programs each and every day.
    And for the youngest children and infants, we operate the 
Special Supplemental Nutrition Program for Women, Infants, and 
Children, or WIC. WIC addresses the special needs of at-risk, 
low-income pregnant, breast feeding and postpartum women, 
infants, and children up to 5 years of age. It provides eight 
million participants monthly with supplemental food packages 
targeted to their dietary needs, nutrition education, and 
referrals to a range of health and social services; benefits 
that promote a healthy pregnancy for mothers and a healthy 
start for their children.
    We also operate several commodity distribution programs 
that provide important nutrition support to specific 
populations. Native Americans have the option of receiving 
commodity-based food packages in lieu of food stamps. Likewise, 
through the Emergency Food Assistance Program, we provide foods 
and administrative funding, support our Nation's network of 
food banks and soup kitchens, critical resources for families 
in need of immediate but temporary food assistance.
    Mr. Chairman, we are using the 2007 Farm Bill process to 
further improve program access and facilitate future self-
sufficiency. The Administration's reform-minded and fiscally 
responsible proposals build on the success of the 2002 Farm 
Bill, which include raising food stamp participation rates 
among eligible populations, restoring eligibility for many 
illegal immigrants, and providing new flexibility for states to 
tailor services to better serve their clients. The 2002 Farm 
Bill improved access, strengthened integrity and provided 
careful stewardship of the taxpayers' dollars.
    For instance, it was my pleasure to award a $1 million 
grant last year to the Georgia Department of Human Resources to 
create a web-based food stamp application system in partnership 
with Georgia Cares in the Division of Aging Services and Christ 
Lutheran Church, a faith-based organization.
    FNS strongly supports state modernization efforts to 
improve access, integrity and efficiency. Eleven states have 
statewide electronic applications and three others are piloting 
operations. Eighteen states have call centers and my staff 
tells me there is a very fine one here in Atlanta also.
    Mr. Chairman, I would like to take a moment to highlight a 
few of our 2007 Farm Bill proposals. These proposals represent 
the culmination of a great deal of planning and listening to 
our partners and stakeholders all across the country.
    We propose to strengthen efforts to integrate nutrition 
education in the Food Stamp Program by recognizing in the Food 
Stamp Act of 1997 that nutrition education is a component of 
the program and investing $100 million to establish some 5-year 
competitive grant demonstration program targeted at developing 
and testing solutions to the rising rates of obesity. These 
grants will allow us to evaluate creative and innovative 
solutions in this complex area such as point-of-sale incentives 
to purchase fruits and vegetables and increased access among 
food stamp recipients to farmers markets.
    We also propose to change the name of the Food Stamp 
Program. Stamps, later replaced by coupons, have not been used 
for many years and does not reflect the program's mission of 
reducing hunger and improving nutrition among low-income 
people. Further, implementation of electronic benefits transfer 
has made food stamps and the program name outdated. Finally, 
some stakeholders suggest that the name is a barrier to 
participation because of stigma, especially among the elderly.
    Next, our proposal to increase program access include:
    Eliminating the cap on the dependent care deduction. The 
cap was set back in 1993. It is time to eliminate the cap, 
which would simplify the state administration and help working 
families with children.
    We also propose to exclude the value of college savings 
plans from the resource limit. This proposal would expand the 
savings plans eligible for exclusion from the resource limit 
when determining food stamp eligibility. It supports working 
poor, encourages focused savings for children's futures and 
recognizes that households should not have to deplete college 
savings plans in order to get nutrition assistance.
    Excluding combat-related military pay. Enhanced pay from 
military deployment can sometimes cause families receiving food 
stamps to no longer be eligible for this vital assistance. This 
policy change would ensure that military families are not 
penalized for doing their patriotic duty. It supports the 
families of servicemen and servicewomen fighting overseas by 
ensuring that their families back home do not lose food stamps 
as a result of the additional deployment income.
    We are also encouraging savings for retirement. This 
proposal simplifies food stamp policy and makes it more 
equitable because under current law some retirement accounts 
are excluded and some are included when determining 
eligibility.
    Beyond the $100 million in obesity prevention grants, we 
also propose to improve nutrition for children by:
    Adding new mandatory funding for the purchase of additional 
fruits and vegetables for use through the National School Lunch 
and Breakfast Programs. This $500 million of funding over 10 
years represents a net increase in the total purchase of fruits 
and vegetables for school meals over levels available under any 
other authorities.
    Conducting a survey of foods purchased by school food 
authorities with Federal cash assistance once every 5 years. 
This data would help USDA efforts to provide guidance and 
technical assistance to school food professionals and the 
implementation of new rules intended to conform school meal 
patterns to the most recent dietary guidelines for Americans; 
two, better manage the types and varieties of commodities 
procured by the department on behalf of schools; and three, it 
would assess the economic impact of school food purchases on 
various commodity sectors.
    Also propose increasing Section 32 spending on fruits and 
vegetables by $2.75 billion over 10 years. This proposal will 
increase the availability of fruits and vegetables to low-
income individuals and school children participating in 
nutrition assistance programs, and the consumption of these 
healthful foods will contribute to the improved health of 
program participants. This provision will benefit farmers as 
well as schools, soup kitchens, food banks, after-school 
programs, and other entities that receive USDA commodities.
    In closing, Mr. Chairman, these proposals will help us 
continue to lead the fight against hunger, and the level of 
commitment to this task remains high. But we still know that 
there is more to do. We are continuing to improve program 
operations, get benefits to those who are already eligible but 
do not participate, and keep our eye on program integrity in 
the process.
    Thank you for holding this hearing. I'm very pleased to be 
here. I would also again like to thank the Atlanta Community 
Food Bank for allowing us to be here today and for the 
wonderful work they do in this community. We will be happy to 
answer any questions that you have.
    [The prepared statement of Ms. Johner can be found on page 
26 in the appendix.]
    Senator Chambliss. Thank you very much, Mr. Carter, for 
that excellent testimony, and, of course, your written 
statement will be made a part of the record.
    For the Food Stamp Program, existing and emerging 
technologies offer great promise to improve service delivery 
for clients who otherwise may experience great hardship when 
required to travel to a local DFACS office, often requiring 
them to miss work. In a letter I sent to Secretary Johanns 
recently, I asked the department to comment on several times 
related to improving the Food Stamp Program through the 
development and implementation of technology. And while I sent 
this letter only recently, as you know, I'd like to ask you to 
respond to a few questions if you're able to at this time.
    No. 1: What assistance does USDA provide, if any, to help 
states develop on-line technologies and to what extent does 
USDA have the ability to share these technologies with other 
states at no cost?
    Second, what steps, including technical assistance, is USDA 
taking to promote and make these on-line technologies available 
to states?
    And third, what steps is USDA taking to monitor the 
development of these on-line technologies to ensure that they 
are the most effective and client friendly?
    Mr. Carter. Mr. Chairman, first of all, we very much 
appreciate your interest in this area.
    The Food Stamp Program, being a part of the human services 
system, is really, I would say, pretty late to the game in this 
whole notion of expanding access. The idea of having to go to 
the local office to be able to receive benefits is an 
antiquated notion. I no longer have to go to my bank to receive 
money, so why is it that I should have to go to a local social 
services agency to receive these benefits.
    So we understand that and the system is moving toward 
addressing those concerns, and we are in the process of 
responding to the letter that you sent to Secretary Johanns and 
it is currently working its way through the bidding process and 
you should have a formal response to that, I would say, within 
the week.
    If you take a look at the questions that you posed, I would 
say there are five factors to FNS support to states as we look 
at the issue of on-line technology. Of course the first is 50/
50 funding. We provide 50 percent of the funding for the 
administration of the program. And so where states are looking 
to enhance their technology in order to better serve customers, 
the Federal Government shares in 50 percent of the cost.
    In addition, we have a pretty aggressive research agenda in 
which we are looking at several modernization efforts. Florida 
has just undergone a very aggressive modernization effort and 
we are currently doing a research project to determine the 
effectiveness of that--of that research process and which, of 
course, we will share those results far and wide.
    We also provide technical assistance. As states begin to 
think about the ideas of modernizing their systems, we provide 
technical assistance in helping them understand how you stay 
within all of the program rules and also sharing best 
practices. We let states know what other states have--have done 
in attempting to modernize their program so that they can take 
advantage of the good things that the other states have done, 
but also not--not fall prey to some of the pitfalls.
    And then, of course, we, as I just said, we provide 
guidance to--guidance to all states, which make sure they are 
able to stay within the parameters of the law.
    So we think that we take a pretty aggressive and 
comprehensive look at assisting states as they begin to think 
through these modernization efforts because it is truly the 
next frontier of delivery of human services.
    Senator Chambliss. Let me just take a minute before we 
leave this subject to explain to the audience why this issue is 
so important because I think the first reaction of any ordinary 
American will be if you got somebody on food stamps, they got a 
computer in their home, how are they going to be able to use 
technology?
    Well, at our hearing in Washington about 6 weeks ago on 
this very issue, we had a welfare recipient from Ohio who came 
and talked about the fact that when she finally made the 
decision that she needed to make application for food stamps, 
which was a difficult decision for her to make in the first 
place because it was obviously somewhat of a humbling decision, 
but one that required her to take off of work, she spent a half 
a day to go to her local office and fill all of the paperwork 
that is somewhat lengthy, and then to--by the time she got back 
to work, she had missed over a half a day. Well, that's X 
number of hours out of her pocket that she could have used and 
did need to use to support her family.
    So she talked about the fact that if she had the 
availability to go on-line to make application for food stamps 
or to express a change in her condition, that it would be such 
a great value to her and she said every public library in every 
community in the state has a computer that every welfare 
beneficiary can have access to. And it doesn't take a rocket 
scientist to be able to go in and figure out how to use it.
    Well, I will have to tell you, that made a heck of an 
impression on me, and she makes very good sense by virtue of 
the--by saying that by virtue of having a computer available, 
if we have the technology in place that every potential welfare 
recipient, every potential food stamp recipient can now not 
have to worry about coming out of the shadows, so to speak, but 
this program is so valuable and so important it ought to be a 
positive in somebody's life rather than have a negative impact.
    So with the availability of computers at public libraries 
and for people to now to go in and have access to those 
computers and to go on-line to be able the fill out their 
applications, which are much easier to do than it is going in 
and filling them out in person, they can do it after work, and 
she said the real advantage of this is I can sit my child down 
over here and have my child reading or studying while I am on 
the computer trying to make sure that we get our application 
filled out in a proper way.
    So it, you know, it is just one of those advantages of 
modern technology that this particular aspect of our social 
programs at the Federal level are now beginning to develop and 
take advantage of. And, Clarence, I want to commend USDA for 
really taking some initiative on this and trying to make sure 
that we do have the technology available to provide this 
service to individuals all across America to take advantage of.
    And I also, before we leave that, when I got to Congress in 
1995, GAO did a study in January of that year in which they 
concluded that the welfare--the Food Stamp Program in this 
country had a waste, fraud and abuse factor of over 25 percent. 
Well, when you look at the fact that we spend about $30 billion 
a year on the Food Stamp Program, that gives you an indication 
of how much money was being wasted, and it means that there are 
a lot of folks who ought to be taking advantage of the program 
that were not being able to take advantage of it because of the 
fact that fraud, this waste, fraud and abuse factor was taking 
away from them.
    We began reforming that system when--in concert with the 
Department of Agriculture, and again this was a bipartisan 
effort. In January of 2006, GAO did a subsequent report on 
this, this issue, and concluded that the current waste, fraud 
and abuse factor in the Food Stamp Program is less than 6 
percent, a dramatic change in that we are now not just saving a 
lot of money, we have got a lot more money that is available 
for our recipients, and it allows the department to have some 
additional funding available to develop this technology so that 
we can help get the program out into the hands of the people 
that need it the most. So there has been a dramatic shift, in 
large part due to the folks at the local level who have made a 
great effort to make sure that folks who need the Food Stamp 
Program are now being able to take advantage of it, and we do 
not have the abuses that we were seeing for so many years.
    So I want to commend the department, but I also want to 
commend the local folks for the great job that you have done to 
help improve this situation.
    Mr. Carter. Mr. Chairman, if I could just echo that. Our 
state and local partners in the delivery of this program have 
really stepped up to the plate, and so we are seeing 
historically low error rates, we are seeing historically low 
trafficking rates, and we are seeing the benefit getting to 
those who are most in need, and it really is because, I 
believe, of a Federal, state and local partnership that works 
the way it is supposed to administer this program.
    Senator Chambliss. In your testimony you mentioned the 
national media campaign to conduct Food Stamp Program outreach. 
When will the outreach campaign begin and what will be used to 
measure the outcomes to campaign, what factors are considered 
in decisions about where to concentrate media outreach and in 
what languages will be used in the media campaign?
    Mr. Carter. Mr. Chairman, the media campaign is currently 
entering its fourth year. We are airing our fourth cycle in the 
media campaign. And in order to determine where we would 
upgrade the media campaign, we worked with our regional offices 
and our states to look at where we had challenges in 
participation. Where we saw there were low participation rates, 
we attempted to use this media campaign to enhance that. We 
have materials available in English and Spanish, and we are 
particularly proud of, in our Hispanic outreach, we see--we 
have a Hispanic hot line, and we see a dramatic increase in 
calls to that hot line whenever we--whenever we do our Spanish 
language media material.
    So we are--and we work with our--with our local partners to 
determine where the need is and then run the programs, or run 
the campaign in those areas, and we have seen increases in 
participation based on where we have that--our media campaign. 
It is in its fourth year of operation at this point.
    Senator Chambliss. Summer food service programs serves, for 
any given year, only a fraction of the students who receive 
free meals in the national school lunch program. To make it 
easier for meal providers to participate in the program, I am 
an original co-sponsor of a bill introduced in the Senate to 
expand the simplified summer feeding program nationwide. What 
is USDA doing to increase the participation to ensure children 
receive the food they need when school is out for the summer?
    Mr. Carter. Kate, why do not you take that one.
    Ms. Houston. Mr. Chairman, thank you so much for raising 
the important issue of summer feeding.
    As you mentioned, we have a challenge getting average daily 
participation in the summer months. During the school year we 
serve about 31 million school meals a day, but in the summer we 
are averaging only about 2 million. So admittedly we have a lot 
of work to do in this area.
    FNS is committed to addressing the issue of increasing 
participation among summer feeding programs, and we really have 
a two-pronged approach that is improving participation at 
summer feeding sites, but also increasing the number of 
sponsors we have to run summer programs.
    You mentioned that you are on the bill for the simplified 
summer program. It is currently operating in 27 states, and we 
found that the program does reduce paperwork and then makes the 
program--makes more sponsors interested in operating the 
program as a result.
    We also have a seamless summer option that we hope is 
increasing participation among sponsors by allowing school 
sites to participate in the National School Lunch Program to 
operate a summer program under the same rules without having to 
reapply. So both of those--both of those strategies we think 
are helping with participation.
    We are also involved with FNS trying to promote the program 
through conferences, national media campaigns, and we have 
recently implemented rural transportation grants that were 
authorized by Congress in 2004. That is operating in five 
states currently, and we are finding that by improving 
transportation needs for children to get to sites, we can 
increase the number of children who have access to summer 
meals.
    Senator Chambliss. Mr. Carter, you talked about an issue 
that I want to highlight a little bit, and that is the issue of 
nutrition education as well as this program of trying to give 
our recipients access to farmers markets so they can get the 
fresh fruits and vegetables.
    One constant criticism of the program that we as 
policymakers have heard over the years is the fact that 
somebody will be standing in line at a grocery store behind 
somebody who is purchasing items with food stamps and the items 
that they see being purchased are not the normal items that it 
takes to feed a child. There is going to be maybe popcorn, 
candy, or whatever being purchased with food stamps and it 
seems like that those are the only items that they see 
purchased with food stamps as opposed to fresh fruits and 
vegetables and nutrition items.
    Now, there are obviously always reasons for that to be the 
case, and it is not that we intend to end the program to deny 
any child the opportunity to enjoy some other things other than 
the fresh fruits and vegetables, but my point is talk a little 
bit more about what you are doing in this area of nutrition 
education so that when a particularly young mother goes to the 
grocery store to buy food, that she has knowledge of what type 
of food she ought to buy to make sure that her young child is 
getting the kind of nutrition that is going to make that child 
a healthy child and thereby a better citizen.
    Mr. Carter. Mr. Chairman, the first thing I would like to 
do in response to that question is to really attempt to explode 
the myth that somehow food stamp recipients have worse eating 
habits than the rest of this society. We have a challenge with 
nutrition and healthy eating all across the board in this 
society if you make $1 or $1 million. And so we certainly want 
to make sure that that stigma is not only visited on the 
population that receives food stamps.
    Now that being said, we of course want to make sure that 
within the Food Stamp Program that we provide as much guidance 
to families that need this assistance as is possible so that 
not only on one hand do they have the resources to purchase 
food, but they also have a knowledge base from which to 
purchase the best foods. So therefore, we have a nutrition 
education program in which, again, we subsidize 50 percent of 
the state's spending where it targets education programs to the 
food stamp recipients. And we have seen some amazing 
partnerships that work in conjunction with our states and our 
cooperative extension associations that really help our food 
stamp population be able to make the best choices possible.
    I think Kate might want to talk a little bit about some 
expanded work we have done on our fruit and vegetables front, 
but we see nutrition education as working hand in hand with the 
Food Stamp Program so on one hand you have the resource, on the 
other hand you have the education to be able to make the best 
possible decisions you can on those very limited resources.
    Kate, do you want to talk about fruits and vegetables at 
all?
    Ms. Houston. Sure. I will just reemphasize what was 
mentioned in the testimony, that we have a number of proposals 
within our Farm Bill proposal to increase fruit and vegetable 
consumption. Recognizing that one in five Americans participate 
in nutrition assistance program, we really see the Farm Bill as 
an opportunity to encourage better eating patterns consistent 
with the dietary guidelines.
    We are proposing $2.75 billion in Section 32 funds over the 
next 10 years be spent to increase fruit and vegetable 
purchases. We anticipate these fruits and vegetables would be 
available for all of the nutrition assistance programs operated 
by the department, but we particularly anticipate the TEFAP 
program as being a primary beneficiary.
    We also are proposing $50 million per year for increased 
fruit and vegetable purchases for the National School Lunch 
Program, and we believe that if we get fruits and vegetables to 
schools and we help to teach children eating patterns early, 
that is really a nutrition education tool that we can help to 
set lifetime eating patterns.
    Senator Chambliss. That issue of allowing our school 
nutrition folks to purchase fresh fruits and vegetables locally 
is an issue that is very near and dear to my heart since I come 
from the heart of agriculture country in Georgia, and needless 
to say because my son-in-law happens to be a produce farmer, 
I'm particularly interested. I know how expensive his wife is 
to maintain.
    We--Georgia has not been a participant in the fresh fruits 
and vegetables program to this point in time. We have got 15 
states, I believe it is, that are participating in that 
program. We were scheduled to come in this year. We were 
included in the agriculture appropriation bill last year, so 
unfortunately that did not get done because that bill never got 
passed in the form that it came out of the committee. But this 
year we are going to ensure that Georgia does participate and 
that we continue to expand this program, because a school lunch 
program that allows a nutritionist to go out to the local 
farmers market or even the local grocery store and to purchase 
fresh fruits and vegetables can dramatically impact those kids 
that are getting those school lunches. So I'm very pleased to 
see the department give the emphasis to this program that you 
are.
    Last, Mr. Carter, let me go back to an issue you mentioned 
because it is very much at the forefront right now with 
situations ongoing from a military standpoint in the world. You 
talked about military families receiving food stamps. I 
remember when I was elected to the House as a member of the 
Armed Services Committee in 1995, and it came to light that we 
had a large number, several thousand military families at that 
time who were eligible for the Food Stamp Program, and that was 
sort of appalling to a lot of us who were new members of that 
committee. And I know that we gave a lot of effort and 
concentrated a lot on trying to remove as many of those folks 
as possible through increase in pay. And I know today those 
numbers have been dramatically reduced, but could you elaborate 
on that a little bit more as to the participation by military 
families in the Food Stamp Program?
    Mr. Carter. Sure. And I apologize that I do not have a 
specific number or percentage of military families that 
participate, and I can make that information available to you, 
but what I would say is that this Administration has realized 
that what we do not want to do is as we--as individuals, put 
themselves on the front line in service to this Nation, in some 
instances they are--their families are eligible to receive food 
stamps. And when they are on the front lines, they are eligible 
for an increased military or combat pay, and we wanted to 
recognize that service by not adding that military pay as an 
additional resource for the purposes of eligibility. Without 
this provision, that if an individual were to receive the extra 
military supplement, that would have to be counted as a 
resource and then could potentially make that family 
ineligible.
    So we see in this Farm Bill proposal, which has been in the 
last two presidents' budgets, we want to make this part of the 
Farm Bill proposal, which would exclude that military pay from 
the resource limit of an individual, so that we, when, as we 
try to honor their service, we also do not make it more 
difficult for them to support their families.
    Senator Chambliss. Let me thank you and Ms. Houston for 
being here today. Thanks for your testimony, thanks to the 
great work you are doing at USDA, and we look forward to 
staying in touch as we go through the Farm Bill process and 
dialog and relative to the nutrition side.
    Mr. Carter. Mr. Chairman, thanks so much for having us this 
morning. It is a pleasure to be here with you.
    Ms. Houston. Thank you very much.
    Senator Chambliss. At this time we will ask our second 
panel to come forward. Mary Dean Harvey, Division Director, 
Division of Family and Children Services; Mr. Alan Essig, the 
Executive Director, Georgia Budget and Policy Institute; and 
Ms. Taquana Spicer, who is a Georgia food stamp recipient.
    Ms. Harvey, we are going to start with you, and I want to 
say at the outset, you and I had a chance to visit right quick 
downstairs, and I know that you are a long-time good friend of 
Secretary Mike Johanns, you are both Nebraskans. You are a lot 
better looking than he is. We are here--we are very pleased 
that you are here to provide testimony. I look forward to 
telling the Secretary that you were here today, and I know he 
thanks you for the great work that you are doing and for your 
participation in this hearing. We will start with you, with 
your comments, and Mr. Essig and Ms. Spicer, we'll come right 
down the line.

 STATEMENT OF MARY DEAN HARVEY, DIVISION DIRECTOR, DIVISION OF 
         FAMILY AND CHILDREN SERVICES, ATLANTA, GEORGIA

    Ms. Harvey. Thank you, Mr. Chairman. It is my pleasure this 
morning to address the Committee on the Food Stamp Program, and 
to really underscore many of the things that Mr. Carter 
mentioned and you addressed in your opening comments.
    Georgians, by nature, are both compassionate and practical, 
which is why we value the Food Stamp Program so much. It can be 
the difference between children who get a good start in life 
and those who do not. Between having the basic necessaries of 
life and choosing what to do without. Between a happy 
retirement and a decline into dependence. In other words, the 
Food Stamp Program is the cornerstone of all social services.
    Today we would like to focus on a few enhancements that 
would make a great program an even better program. One is 
expanding the use of technology, which has been addressed. Next 
is strengthening the focus and self-sufficiency, and improving 
the way we serve the elderly.
    We believe a greater investment in technology would bring 
more access, improve quality and fewer errors. While low-income 
citizens used to have little access to technology, as has been 
pointed out, that access has been broadly expanded. Today it is 
a different world for them.
    Thanks to a $1 million food stamp participation grant from 
USDA Food & Nutrition Service and a $2 million gift from 
Governor Perdue and the Georgia Technology Authority, Georgians 
will soon be able to start the application process, report 
changes in household income, schedule interviews and 
appointments and receive a checklist of all verified items, all 
on the web.
    If we can process 35 percent of our applications on-line 
each year, we will save our workers approximately 240,000 
hours, so that they can focus on the things only that they need 
to and improving the quality of our services while reducing our 
errors, making it faster, friendlier, easier, and more 
convenient for recipients.
    Employing technology can help instill self-sufficiency as 
well. Strengthening the overall program support of self-
sufficiency would have an even bigger impact. We'd like to see 
services for the able-bodied adults without dependents function 
more like TANF where stricter requirements and better 
assistance has helped Georgia reach a work participation rate 
of now 70 percent, with many counties having zero mandated 
adults on our rolls. Support such as job coaching, transitional 
support to help them stay employed with returners representing 
about 8 percent of our clients have proved to be beneficial for 
the state of Georgia.
    Another good example that I would like to point out is our 
Fatherhood Program, which invests in training and educational 
programs for non-custodial fathers and mothers to help them get 
better paying jobs so that they could meet their child support 
obligations and have a bigger impact on their children's lives. 
So far this year we've had over 2,300 participants, 60 percent 
of whom have gotten new or better jobs. Now we are reaching out 
to our prison population, transitioning them back into society, 
assisting them in finding jobs so that they can help to support 
their children.
    As one of the useful and reliable tools in our human 
services toolbox, the Food Stamp Program could do even better 
work for us with similar enhanced work requirements and 
incentives.
    For those past their working years, the Food Stamp Program 
becomes an even more important part of support. The elderly are 
a vulnerable and growing population. Many live on small, fixed 
incomes, but because they may have other benefits, they often 
qualify only for the minimum food stamp benefit; and that is 
just $10 a month. In fact, 62 percent of the people receiving 
the minimum benefit in Georgia are single persons over the age 
of 60. That minimum hasn't been adjusted since 1974 and has 
approximately one-fourth of the buying power as it did back 
then. That means that the cost of a quart of milk, a dozen eggs 
and a loaf of bread in 1974 would buy you today a half pint of 
milk, three eggs, and enough bread for a couple of sandwiches.
    The single most effective change to help seniors would be 
to raise that minimum benefit to at least $25 a month, not only 
increasing its value, but also making it more likely that 
seniors would participate. Too many of them decide applying 
isn't worth $10 a month, so they skip the program and a few 
meals.
    Increasing the asset limit would also help and that has 
been addressed. With people living longer, they'll need the 
homes, the IRAs and everything they've managed to save. We can 
make food stamps even more valuable by taking that into 
account.
    Seniors have a great demand on them today. More than 
164,000 children in Georgia are living in a household headed by 
a grandparent, children who might otherwise be in foster care. 
We'd rather have them living in the loving arms of family than 
in our foster care system. Through our department-wide 
Grandparents Raising Grandchildren initiative, we prioritize 
those seniors for many services. We give them an extra $50 a 
month as relative placements and we help them make their homes 
ready to raise children again with an initial payment. Enhanced 
food stamp benefits would help both those seniors and the 
children they care for.
    I cannot begin to imagine how we would do our jobs as 
social service providers without this valuable program. On the 
contrary, what I can easily imagine is how we could make it 
even more an integral part of our overall package for 
strengthening families and making individuals more self-
sufficient.
    We would encourage you to help drive our work in that 
direction. Holding states accountable with penalties is 
necessary but not sufficient to optimize the impact of the 
program. Balancing those with additional incentives can give us 
something higher to reach for, producing better long-term 
social outcomes and paying dividends to America for a long time 
to come.
    Thank you for the opportunity. I would be glad to answer 
any questions you have.
    [The prepared statement of Ms. Harvey can be found on page 
47 in the appendix.]
    Senator Chambliss. Thank you. Mr. Essig.

STATEMENT OF ALAN ESSIG, EXECUTIVE DIRECTOR, GEORGIA BUDGET AND 
               POLICY INSTITUTE, ATLANTA, GEORGIA

    Mr. Essig. Mr. Chairman, first I would especially like to 
thank you for your leadership in the Committee in recent years. 
You have been a true champion of the Food Stamp Program. It is 
greatly appreciated.
    The Food Stamp Program is a win/win for Georgia.
    The Food Stamp Program pumped over $1 billion into the 
Georgia economy 2005, benefiting farmers, grocers and small 
businesses throughout the state. The Food Stamp Program helps 
over 920,000 residents buy food each month. The Food Stamp 
Program is one of the most efficiently administered programs in 
the Federal Government. It is the largest food assistance 
program in the country and the Nation's largest child nutrition 
program. About 80 percent of food stamp benefits go to 
households with children, many of them in working families.
    Although Georgia continues to approach the national average 
in median income, thousands of Georgians have trouble making 
ends meet and often struggle to purchase adequate food. In 
fact, 14.4 percent of Georgians, over 1.2 million people, live 
in poverty in 2005. Georgia ranked 14th highest in poverty 
rates among the states. Although overall poverty was high, 
children's poverty in Georgia was even greater. In 2005, 20.2 
percent of Georgia's children lived in poverty, giving Georgia 
the 15th highest child poverty rate in the Nation. This has led 
to Georgia having the 14th worst rate of food insecurity in the 
Nation. USDA has found that more than 12 percent of Georgia's 
households are food insecure, what most people would call 
hungry. Census Bureau data shows that an estimated 408,000 
households in Georgia live with hunger.
    Even people who get food stamps frequently find that the 
benefit is not enough to get them through the month. Due to a 
cut rate in 1996 and that remains in effect today, the benefit 
is declining in purchasing power. The average monthly benefit 
here is only $1.07 per meal, but that benefit buys less and 
less food from year to year. How can anyone live off $1.07 a 
meal for a whole month, let alone purchase an adequate 
nutritious diet?
    This means families struggle to have enough to eat as the 
month goes by and the food stamps run out. In Georgia the 
benefits lost due to the erosion of the benefit standard 
deduction since 1996 will reach $15 million by 2008 and a 
staggering $711 million between 2008 and 2017.
    The committee heard recently from Rhonda Stewart, a food 
stamp participant from Ohio, who spoke eloquently about the 
struggle to stretch the food stamp benefit to last the month 
and the difficulty choices she had to make. Georgians face 
these same choices at the end of the month when the food stamps 
are gone, between paying the utility bills or buying milk, 
between the adults eating or feeding the children. For 
children, not having enough food can be particularly 
devastating because they need proper nutrients and quantities 
of food to help them develop cognitively, physically and 
emotionally.
    The Senate Agriculture Committee took steps to ameliorate 
this problem in the 2002 Farm Bill by indexing the standard 
deduction used to calculate benefits for larger households. 
This year the Senate finished this job and indexed the 
deduction for all households. While it would not restore 
benefits to the level they should be, it will prevent the 
benefit from further erosion. The cost of this improvement 
would be about $1.3 billion over 5 years. Almost half of the 
benefits in this change will go to families with children. 
Slightly more than half will go to households with an elderly 
or disabled member. Stopping the erosion of benefits is a vital 
part of efforts to reduce hunger and improve the nutritional 
status of food stamp participants.
    Another problem is that many people who need food stamps 
cannot get it through Federal eligibility rules. Thank you, 
Senator Chambliss, for sponsoring an important bill to allow 
needy families to receive food stamps if they have modest 
savings put aside for emergencies, education or retirements. S. 
591 is a vitally important piece of legislation.
    I would also like to mention the problems for working poor 
families that pay for child care. The average cost of child 
care for poor mothers is almost $350 per month. Many low-income 
families in Georgia must pay this full expense out of pocket. 
The Administration's budget this year proposes to help these 
households by adjusting food stamp populations so they can 
deduct the full amount of their child care costs they incur. 
Currently the amount is capped at the 1993 levels of $200 or 
less. The Senate could eliminate the cap on the child care 
deduction to help these families bear the high cost of child 
care without sacrificing food.
    Congress also should work hard to reduce access barriers to 
the Food Stamp Program. In Georgia only 67 percent of all 
households who are eligible for food stamps receive the 
benefit. The participation rate for the working poor is even 
lower at 57 percent.
    I would also like to ask the committee to oppose the 
President's proposal to eliminate 300,000 low-income people 
from the program by stripping state's flexibility provided in 
1996 Welfare Law, which allows states to coordinate their 
eligibility rules with state TANF programs. Those affected 
generally would be among the most vulnerable groups the program 
serves: working families with children that are receiving some 
kind of TANF-funded support. In Georgia, 811 children would 
lose food stamps as well as 625 adults and elderly people. The 
Committee has rejected this cut every time the President has 
proposed it, should continue to protect these vulnerable 
households.
    In closing, I want to thank the committee for taking the 
time to learn about the importance of the Food Stamp Program. I 
also want to thank you for your consideration of the six food 
stamp recommendations for the 2007 Farm Bill: stop the erosion 
of benefits, to simplify enrollment, to adjust benefits to more 
accurately reflect child care costs, to allow more families 
with modest assets to participate in the Food Stamp Program, 
reduce access barriers to the Food Stamp Program, and to reject 
the Administration's proposed termination of some working poor 
families from the program by ending state flexibility to use 
categorical eligibility.
    [The prepared statement of Mr. Essig can be found on page 
37 in the appendix.]
    Senator Chambliss. Thank you very much.
    I talked to Ms. Spicer a little earlier today and she said 
something about being nervous. She has three children that she 
will describe in a minute, she's used to talking to an audience 
of three rather than an audience this size, so before she 
starts, let's make her all feel welcome and honor her for being 
here today.
    [Applause.]
    Senator Chambliss. Ms. Spicer, thank you.

      STATEMENT OF TAQUANA SPICER, CLAYTON COUNTY, GEORGIA

    Ms. Spicer. OK. To the Chairman and Distinguished Ladies 
and Gentlemen of the Senate, I would like to thank you for the 
opportunity to speak with you today. It is truly an honor.
    Please let me begin by introducing myself. My name is 
Taquana Spicer. I live in Clayton County, Georgia. I am an 
administrative assistant with Hearts to Nourish Hope, a 
nonprofit agency that offers services to at-risk youth. I 
obtained my position through the TANF work program and I have 
been with my organization for 4 years. I also have three 
children, ages ten, six and two.
    Before I obtained my current position, I was out of work 
and found myself living in a shelter in Fulton County with my 
children. I was in the shelter for 6 months and during that 
time I could not find a job. I was finally able to move out to 
Clayton County with my mother's help. She had received a small 
amount of back child support from my father and used the money 
to help me find housing.
    While I was in the process of moving, I missed a TANF--I'm 
sorry--I missed an appointment to transfer my TANF and food 
stamp cases from Fulton County to Clayton County and my 
benefits were terminated. I found myself living in Clayton 
County with no job, no benefits and no food for my children. 
When I had so little money that I could not afford bus fare, I 
walked four and a half hours to the local DFACS office to 
reapply for my benefits. At that time I was enrolled in the 
Clayton County TANF work program. Because I wasn't given 
emergency food stamps at the time, the woman in charge of the 
TANF work program, Diane Danely, bought me $50 worth of 
groceries to get me through the month, and I will always be 
grateful for her assistance. Ms. Danely also decided that it 
would be better for me to obtain clerical experience rather 
than finding another job as a salesclerk. She placed me in my 
current position with Hearts to Nourish Hope, and I was 
eventually given a full-time position.
    I love my job and working with my organization. We help 
older children who are at risk by providing GED classes, 
counseling and help with homework and a place to go after 
school. I love the children, and I see how many of them are in 
the same position I was when I was their age. I want to help 
them go about things in a different way than I did. I feel 
very--I'm sorry. I feel very lucky to work where I do.
    In my position with Hearts to Nourish Hope I work full time 
and take home pay is approximately $960 a month. My rent is 
$700 a month, plus I have expenses for child care, utilities, 
and public transportation, as well as for my children's 
clothing and supplies. At this time I do not receive child 
support. Without my monthly allotment of food stamps, which is 
$462, I would not be able to make ends meet. If my food stamps 
were cut even by $50, I would not be able to pay some other 
bills such as my lights, gas or even my rent. I always use 
plenty of coupons when I shop, and I typically buy food at Wal-
Mart. Because I buy bulk foods, they last a lot longer. I 
usually spend $150 to $175 every 2 weeks on groceries. 
Sometimes I have enough food for my children and sometimes I do 
not. It typically depends on whether or not the children are 
out of school. Because they eat breakfast and lunch at school, 
I have a harder time during holidays or on the weekends. Food 
stamps are very important to me and my family.
    I am very hopeful that 1 day I will no longer have to 
receive food stamps. I obtained my GED in 1999 and I'm going 
back to school this fall to study in business administration. I 
plan to attend Shorter College and am optimistic that going 
back to school will lead to an increase in my income. In the 
meantime, the help I receive from food stamps, the Food Stamp 
Program, will enable me to achieve my goals and I also want the 
best for children. What I want most is for them--what I want 
most is that they won't have to receive food stamps when they 
are adults. I also want to be able to provide them with the 
things that they need and good nutritious food. I am grateful 
to the Food Stamp Program for helping me to be able to do this, 
and I want to thank you for your generous support of the 
program. I know many other people who are like me who work hard 
and who just need a little bit of help to make a better life 
for themselves and their children.
    Thank you for your time and allowing me to tell my story. I 
would be happy to answer any questions at this time.
    [The prepared statement of Ms. Spicer can be found on page 
52 in the appendix.]
    Senator Chambliss. Well, thank you very much for that 
emotional and inspired story. You did very well.
    [Applause.]
    Senator Chambliss. Ms. Harvey, one of the ideas that we 
discussed earlier with Mr. Carter was the investment in 
technology to improve the Food Stamp Program, and I know here 
in Georgia we are moving very rapidly toward the development of 
a web site. Talk a little bit about that web site, when is it 
going to be ready, how easy is it going to be for individuals 
to access that web site, and go through the process of filling 
out an application either for new benefits, changing benefits, 
changing counties, whatever the situation may be.
    Ms. Harvey. Thank you, Mr. Chairman. I think the most 
recent example that Ms. Spicer gave us highlights the need to 
have access via technology. She would not have had to, A, miss 
that appointment at the office, the case could have been 
transferred to the other county where she had moved, and, B, 
benefits would not have been discontinued, and you would not 
have had to walk four miles. My hat is off to you.
    So we are very, very excited about the ability to get on-
line access coming up pretty quickly. I might say, being the 
prudent people that we are in DHR, when I said it is a 
department-wide effort, we are using--we are leveraging 
resources with the department of aging, Division of Aging as 
well so that we will be able to access Medicaid and a whole 
bunch of things through that option.
    I have a ton of support out here with me today, so I will 
ask Bonita to tell us when we think we will have our on-line 
access ready.
    Ms. Edwards. It is approximately about 18 months we expect 
to have that application finished and up and running.
    Ms. Harvey. And I really thank you. Thank you. I want to 
thank our regional office as well and to recognize them. We 
work with tons of Federal entities in getting our work done, 
and one of the more responsive of those is our FNS regional 
office. I would like to thank them for that. And forgive me, 
Batista.
    Senator Chambliss. How has Georgia utilized the Food Stamp 
Program as a resource to cope with the situation involving 
Hurricanes Katrina and Rita?
    Ms. Harvey. When we look at our food stamp application and 
participation rate, we saw huge, a huge increase, particularly 
following Hurricane Katrina and Rita, and, I might point out, 
the most recent tornado that we had in about eight to eleven 
counties in south central Georgia here most recently. We were 
able to--and again, hats off to all of those people who were 
responsible for administering that program--we were able to get 
food stamps to people immediately, because that was an 
immediate need without having them go through a long, 
cumbersome process. So we were able to expedite services to 
them and found good support from our regional office in having 
that happen.
    So without having that benefit and making it available to 
people, clearly people would have been in trouble. Georgia 
experienced a huge influx of folks as a result of that 
hurricane, and I was in Americus, went to Americus the day 
after the tornado there, and again we had to set up the same 
kind of emergency offices there, and when I approached our 
building where we were located, there were 200 folk in line. 
And what they were looking for primarily was a means to secure 
food because they had lost their food. For those who even have 
homes left standing, the power had been out. And that power 
stayed out for many days. So food was essential. And I cannot 
underscore the importance of that particular benefit by saying 
it truly is the cornerstone of all social services.
    Senator Chambliss. When you have a situation like that, 
does somebody have to go through filling out all the paperwork, 
or do you take emergency measures just to get something in 
their hands so they can buy food?
    Ms. Harvey. We take emergency measures. And the wonderful 
part about all of that is that we were holding our breath, 
waiting for those counties, particularly with the last tornado, 
to be declared a disaster because we have to have disaster 
declarations before we can get any benefits out to them.
    But the good news is we had gained such experience with 
Katrina and Rita that we knew how to do the preparatory work so 
that the moment that the President declared the area a disaster 
area, we were able to get those benefits in the hands of 
people. So within a very short timeframe we can provide that 
assistance.
    Senator Chambliss. Great.
    The department is proposing to change of the name of the 
Food Stamp Program to the Food and Nutrition Program. Do you 
have any--first of all, do you agree with that? Do you have any 
suggestions or comments to them about that?
    Ms. Harvey. I applaud it. I commend them. It is about time. 
We haven't had stamps for so long. We haven't had the paper 
coupons for so long. The electronic benefits is a widely 
accepted and yet well practiced thing. It removed--that tool, 
in and of itself, removed a lot of stigma. It is tough for folk 
now to tell whether that is a credit card that is being swiped 
or what that is that is being swiped. So it just incorporates 
that body of Americans who find it necessary to use that tool 
to assist their families, it incorporates them into the larger 
society.
    I would so support the change of the names. Food and 
nutrition. I oftentimes have to remind people of the economic 
impact that this program has on every state, not just Georgia, 
but every state. When my guys were in Nebraska, I knew towns 
that would have shut down had we pulled that out of the 
economy.
    So this program is beneficial not only for the children and 
families who are direct recipients, it is also a huge economic 
boost. Any time we are putting nearly a billion dollars into 
the economy of the state of Georgia via this one vehicle, I 
think it deserves to be elevated and recognized for the 
importance that it holds for all of us.
    Senator Chambliss. I actually learned something today. I 
had no idea that one out of every ten Georgians takes advantage 
of the program annually. That is an amazing figure.
    Mr. Essig, you mentioned the great strides that Congress, 
USDA, and the states have made to address the issue of Food 
Stamp Program payment error rates and successfully bring these 
error rates down to historical lows. What should the Committee 
consider to protect and encourage program accuracy?
    Mr. Essig. I give a lot of credit to Congress and the 
states, and I think Georgia is a perfect example of that, where 
they have really concentrated, the last four or 5 years, on 
trying to be as accurate as possible. I think the--some of the 
proposals that you were talking about, nowadays anything that 
can bring better technology into the system that can help us do 
things more efficiently will help improve the system. I think 
it is a question of prioritizing, a question of the importance 
of it. I mean, there comes a point where I do not think 
anything is ever going to be perfect. I do not think we can get 
100 percent. Human beings are going to take mistakes and that 
is going to happen. But I think we can get to a point where we 
can get as low as we possibly can.
    And then I think the challenge is to keep it at that, and I 
think a lot of that is just keeping the focus on accuracy, 
keeping the best technology possible, making sure that the 
staff makes that as a focus. And again I really think in 
Georgia DFACS has really made that a priority the last four or 
5 years. I cannot speak for other states, but there has been 
obviously a national--you know, that a lot of states are doing 
better on it. But I think in Georgia we are really doing a 
better job on that.
    We can use your assistance from the Federal Government and 
possibly get additional funding and technology help. But it is 
a question of focused priority, I think on the bureaucracy, to 
make it as efficient as possible, as fair as possible, to be as 
accurate as possible. I think we have had that focus the last 
four or 5 years. It is a question of keeping it there.
    Senator Chambliss. We are talking about developing 
technology to allow folks to go on-line. How are we going to do 
oversight to make sure that an individual who goes into a 
public library as opposed to coming face to face with a 
caseworker at a DFACS office is truly the person they say they 
are.
    Mr. Essig. I think that is a challenge not just in state 
programs, but we are now on an on-line--the society has changed 
tremendously. We do a lot of our shopping, a lot of our 
business on-line. And it is always that who--if I'm buying 
something from Amazon.com, do they know it is me, do they know 
it is my credit card. I am not a technology expert, so I cannot 
tell you exactly how to do it, but it is being done all over 
the country. Other states have been very, I think, successful 
in adapting this technology. I think there is models out there. 
And again it is having the focus on the importance of it, 
having the flexibility to do it the best way possible.
    But I think it is the--it is the wave of the future, and it 
is up to us to develop the system and the technology--
technological capabilities to assure that we do not have fraud 
and abuse as we go more on-line. But I think going more on-line 
is inevitable, and I think it is better for the recipient, it 
is better for the state, it is better for the Federal 
Government. And again every--it is the way business is done and 
this is just another business--you know, applying for 
government services is just another business aspect of looking 
at your life. And we need to--we just need to make it a focus.
    Senator Chambliss. In your testimony you mention that there 
are access barriers out there for food stamp recipients to--
that they encounter from time to time. What are these barriers, 
how can we as policymakers address these barriers, eliminate 
these barriers, make them easier to knock down so that folks 
can have access to the program?
    Mr. Essig. And here is another example where I really want 
to compliment the state in the last couple years. They have 
really made some reforms that have made it easier on food stamp 
recipients. I think you have talked to some of them in some of 
your opening comments. And I think the example that Ms. Spicer 
went through is a good example of how we should not have the 
type of barriers she had to go through.
    You know, if having someone who has a job, that is maybe an 
hourly wage worker and to expect them to take half a day off, a 
full day off to apply for these kind of benefits is a huge 
barrier. So anything we can do through technology to being able 
to apply over the phone, being able to apply over the Internet, 
anything we can do to make it easier on that. At the same time 
have the systems in place to make sure that that reduces the 
problem would be a huge step forward.
    It is a question of how--and again I think the business 
analogy, you know, the idea of business today is how to make it 
as simple as possible for consumers to buy what they need to 
buy. And I think we need to have the same philosophy with how 
we do business as government, whether it is at the Federal 
level or state level. How do we make it simple? How do we make 
it seamless? How do we make it so it is as not intrusive as 
possible?
    At the same time, we need to be very aware of taxpayers' 
money and there is accountability that we all have to be aware 
of and to build those systems in place within the wondrous 
technology that we have today that will allow us, allow folks 
like Ms. Spicer to be at home on the weekend to a library 
computer as opposed to taking a half day off of work.
    Senator Chambliss. Ms. Spicer, again you are the very heart 
of why we are here today talking about food stamps. It is 
situations like yours that this program needs to address, and I 
applaud your spirit, your determination, your persistence in 
making sure that your children do have the nutrition that are 
going make them smarter young people, better prepared young 
people, and you are certainly to be commended for that.
    I am also grateful that you are mentoring other young 
people in your work today and help them find a--in trying to 
help them find a better way of life out there. You are an 
example of the goodness and hope that nutrition programs can 
provide, an example of which we can all be proud.
    One of the initiatives underway in several states includes 
simplifying of the process of individuals to fill out and 
submit food stamp--food stamp applications. In your experience, 
how difficult is the application process for participants and 
what are the hardest parts to complete?
    Ms. Spicer. I would say it is difficult, like he said, 
taking off work and having to go spend half a day in the office 
as opposed to being at work where I could be getting the income 
that I need to have. If I could fill it out even at work on-
line that would be great.
    The hardest part filling out--actually, the application is 
not that hard. The application itself is not that hard. It is 
basically the hardest part is humbling yourself, having to go 
in there and you never know what you would be dealing with as 
far as, you know, other people's attitudes and how they feel.
    Senator Chambliss. In your testimony you shared the 
experience of losing benefits when you moved from Fulton County 
to Clayton County, and this is one of the aspects that we 
really want to address with this technology improvement that we 
are talking about.
    At the time when your benefits were dropped, would it have 
been possible to renew your benefits by using a computer or a 
computer-based application make the process easier?
    Ms. Spicer. Yes.
    Senator Chambliss. For transfer as well as what you just 
talked about?
    Ms. Spicer. Yes. I missed out on the appointment because of 
transferring from Fulton County to Clayton County. They had 
already sent a renewing letter to my old address and I did not 
get it at the new address, so I know to renew my benefits--I'm 
sorry--call metro change center when it is time to let them 
know of a change, and I called in and they had already said 
that I missed the appointment. I knew if I could have just went 
on-line it would have been easier.
    Senator Chambliss. Well, again thanks to all of you for 
providing valuable testimony here today. I assure you that your 
testimony is going to be duly considered as we look at the 
nutrition title and the reauthorization of the Food Stamp 
Program. You certainly have given us a lot of insight, not just 
to the day-to-day operation on the beneficiary side, but from 
an administration standpoint. We thank you for giving us your--
the benefit of your testimony and your ideas about what 
direction we need to go in.
    Well, that concludes our hearing, and I again want to thank 
Bill. Bill, raise your hand back there for those of you that do 
not know Bill Bolling.
    [Applause.]
    Senator Chambliss. What a great American Bill is, but this 
place would not operate with the great staff that Bill has 
here, both the very few paid staff and the many hundreds of 
volunteers that he has. And for those of you who would like to 
have a tour of this facility, and if you have never had one, 
folks, you ought to take advantage of it. I tell you, it is an 
amazing process from which you will walk away feeling good 
about your country, good about your county and about your state 
if you are from Georgia and live in this area.
    So if you would like to go on a tour, if you will meet 
downstairs in the lobby there, is that where we are going to 
be? If you will meet in the lobby downstairs, there will be 
folks who will be happy to give you a tour.
    This record is going to remain open for 5 days for anyone 
who wishes to submit a statement, and with that this hearing 
will be concluded.
    [Whereupon at 11:21 a.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             April 10, 2007



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 10, 2007



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
